USCA11 Case: 19-13720

Date Filed: 05/12/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13720-JJ

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
ABDULLAH HAMIDULLAH,
a.k.a. Abdullah Hamid,
a.k.a. Abdullah A1 Hamid,
a.k.a. Supafly,
Defendant - Appellant.

Appeal from the United States District Court
for the Middle District of Florida

ON PETITIONS FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: ROSENBAUM, NEWSOM, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 1 of 26

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13720
Non-Argument Calendar
D.C. Docket No. 6:16-cr-00027-CEM-KRS-l
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
ABDULLAH HAMIDULLAH,
a.k.a. Abdullah Hamid,
a.k.a. Abdullah A1 Hamid,
a.k.a. Supafly,
Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Florida
(March 1,2021)
Before ROSENBAUM, NEWSOM, and ANDERSON, Circuit Judges.
PER CURIAM:

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 2 of 26

Abdullah Hamidullah pled guilty to four sex trafficking offenses and was
sentenced to a total term of 482 months of imprisonment, more than double his
advisory guideline range. He appealed, and we vacated the sentence on the narrow
ground that the district court procedurally erred by relying on disputed and unproven
factual statements in the presentence investigation report (“PSR”). United States v.
Hamidullah, 768 F. App’x 914, 918-19 (11th Cir. 2019).

We remanded for

resentencing and expressly permitted the government to present evidence in support
of the disputed facts. Id. at 919.
When the case returned on remand, Hamidullah moved to withdraw his guilty
plea, claiming that one of the disputed facts affected the validity of his plea, and re­
raised his objections to the PSR. The district court denied the motion to withdraw
and then, after hearing testimony from two government agents who had interviewed
Hamidullah’s victims, overruled his objections to the PSR. The court resentenced
Hamidullah to the same term of 482 months of imprisonment.
On appeal, Hamidullah argues that the district court abused its discretion by
denying his motion to withdraw his guilty plea. He also challenges his sentence,
contending that the court procedurally erred by basing the sentence on unreliable
hearsay testimony and abused its discretion by imposing a substantively
unreasonable sentence which was more than double the sentence recommended by
the Sentencing Guidelines and by the government. After careful review, we affirm.
2

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 3of26

I.
In February 2016, Hamidullah and a codefendant, Christina Davis, were
indicted on several offenses related to sex trafficking. Hamidullah negotiated a plea
agreement with the government in which he agreed to plead guilty to one count of
sex trafficking through the use of force, threats of force, fraud, and coercion, in
violation of 18 U.S.C. § 1591(a) (Count Two), one count of transportation of an
individual in interstate commerce with the intent that such individual engage in
prostitution, in violation of 18 U.S.C. § 2421 (Count Three), and two counts of
enticement of an individual to travel in interstate commerce with the intent that such
individual engage in prostitution, in violation of 18 U.S.C. § 2422(a) (Counts Four
and Five). Davis pled guilty to one count of using interstate commerce to aid an
unlawful prostitution enterprise, in violation of 18 U.S.C. § 1952(a)(3) (Count Six).
Hamidullah’s plea agreement included a stipulated factual basis for his guilty
plea. According to the factual basis, Hamidullah operated a prostitution enterprise
involving at least three women, known by their initials as L.P., A.W., and T.R.
Between December 2010 and February 2011, “the defendant transported, persuaded,
induced, and enticed A.W., tf.P. , and T.R. to travel in interstate commerce with the
f

intent that A.W., L.P., and T.R. engage in prostitution.” In particular, Hamidullah
i

advertised these women for commercial sex on Internet webpages and print media,

3

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 4 of 26

and in January 2011 they traveled at his direction from Orlando, Florida, to engage
in prostitution in Washington, D.C.
During this same period, the factual basis continued, Hamidullah “used a
combination of force, fraud, and coercion to intimidate A.W. in order to cause her
to fear that she would suffer serious harm if she did not continue prostituting for the
defendant’s profit.” This conduct included “assaulting A.W., retaining all of the
prostitution proceeds, . . . taking her cell phone that contained A.W.’s stored
contacts, confiscating all of A.W.’s money, showing A.W. his handgun, having
A.W. tattooed with the word ‘Daddy,’ and installing an alarm on the apartment door
without providing A.W. the access code.” The factual basis explained that A.W.
became involved with Hamidullah after she answered an Internet advertisement that
he and L.P.—who had worked for Hamidullah since 2005 and was in a sexual
relationship with him—posted “to recruit women into the defendant’s prostitution
enterprise by falsely offering employment.” Acting on Hamidullah’s behalf, L.P.
“falsely represented that A.W. could make a lot of money, but did not disclose that
A.W. was being recruited to prostitute for the defendant’s profit.”
At a change-of-plea hearing in June 2017, the district court conducted the plea
colloquy required by Rule 11, Fed. R. Crim. P., covering the elements of the four
counts, the minimum and maximum penalties, the Sentencing Guidelines, the terms
of the plea agreement, and the rights Hamidullah was waiving by pleading guilty,
4

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 5 of 26

among other things. Hamidullah stated that he understood, and he confirmed that
he had reviewed and signed the plea agreement, that he was entering the guilty plea
freely and voluntarily, and that he had fully discussed the case with his attorney and
was satisfied with her representation.
Near the end of the hearing, the district court asked the government to give a
brief proffer of what it intended to prove if the case went to trial. As the government
began to summarize the plea agreement’s factual basis, the court interjected to ask
about the content of the Internet advertisement referenced in the factual basis. The
government responded that it was “for modeling,” and continued with the summary.
When the government finished, Hamidullah spoke with his attorney and then
objected that he had advertised for “escorts,” not “models .” The government
responded that the “evidence in this case and the witnesses that we have available
would testify that the ad was for modeling.” The district court, stating that they were
“way in the weeds,” noted the dispute for the record and indicated that it would be
resolved at sentencing, when the “ad will likely be presented to the [cjourt as an
exhibit.” Hamidullah had no other objections, so the court accepted his guilty plea
as knowingly and voluntarily made and concluded the hearing.
Before sentencing, the probation office prepared Hamidullah’s PSR. The PSR
described Hamidullah’s offense conduct in considerably greater detail than the
factual basis in the plea agreement. As we recounted in Hamidullah’s previous
5

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 6 of 26

appeal, the PSR described the offense and relevant conduct, in relevant part, as
follows:
The PS[R] stated that several of Hamidullah’s victims responded to
newspaper or online advertisements seeking escorts and models.
Hamidullah then informed the women that they would be prostituting
themselves.
Hamidullah kept the prostitution proceeds,
Hamidullah
physically, sexually, and emotionally abused the women. The sexual
abuse included whipping with chains and dog leashes, choking, and
anal sex. Hamidullah also provided the women with alcohol,
marijuana, and Xanax and forced women to have abortions.
Hamidullah instructed his victims to “find women with family
problems” on social media and told them what to say to the women
online and over the phone and how to convince them to prostitute
themselves once they arrived in person.
Hamidullah, 768 F. App’x at 916. There were also victim-impact statements from
A.W. and another victim, J.R., who described the severe, lasting damage
Hamidullah’s conduct had caused them.
Hamidullah raised numerous objections to the factual assertions in the PSR
that went beyond what was included in the plea agreement. In relevant part,
Hamidullah denied (1) advertising for models; (2) forcing women to have abortions;
(3) sexually assaulting any victims; (4) giving drugs to victims; and (5) instructing
others to recruit women with family problems. The district court overruled these
objections at sentencing and adopted the PSR’s factual statements without hearing

6

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 7 of 26

evidence from the government. The court then referenced the disputed facts in
imposing a total sentence of 482 months of imprisonment.
Hamidullah appealed, and we vacated and remanded. We found that the
district court erred by relying on disputed facts that the government had failed to
prove by a preponderance of the evidence. Id. at 918-19.

Nevertheless, we

concluded that, in the circumstances of the case, “the [government should be
permitted to present additional evidence on remand.” Id. at 919 (noting that the
district court largely “did not expressly rule on any of Hamidullah’s objections or
the Government’s responses before relying on the Government’s responses as
support for the sentence”).
II.
When the case returned to the district court on remand, Hamidullah filed a
sentencing memorandum adopting his prior objections to the PSR. After a brief
continuance of the resentencing hearing, he then filed a motion to withdraw his
guilty plea, alleging that the disputed fact of whether he recruited victims by placing
advertisements for “escorts,” as opposed to “models,” was fundamental to the
validity of his guilty plea. In his view, the district court had indicated at the changeof-plea hearing that it would “allow him the opportunity to withdraw his plea” if the
government failed to offer proof of this fact at sentencing. Because the government
did not offer such proof and had no such evidence, Hamidullah asserted, he was
7

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 8 of 26

entitled to withdraw his guilty plea. Responding in opposition, the government
argued that this factual dispute was not relevant to or included in the factual basis
for his guilty plea, which Hamidullah knowingly and voluntarily agreed was
sufficient on its own to meet every element of the offenses charged.
At Hamidullah’s resentencing, the district court first addressed the motion to
withdraw and, after hearing argument from the parties, denied it. The court noted
that, while Hamidullah denied “he was misleading these victims by advertising that
it was a modeling service versus an escort service,” he also “agreed multiple times
in the plea agreement that he was deliberately and fraudulently misleading these
victims.” Given the “context of the overall change of plea,” the court found
Hamidullah’s assertions regarding the importance of the factual dispute not credible.
Turning to Hamidullah’s objections to the PSR, the district court heard
testimony from two government witnesses, Special Agent Brady Oberholtzer and
Agent Quincy Alleyne. Oberholtzer testified about A.W.’s statements during three
interviews he conducted with her. In November 2010, according to Oberholtzer,
A.W., who had just turned eighteen years old and recently lost custody of her baby,
responded to a Craigslist advertisement for “adult modeling” and spoke with L.P.,
who offered A.W. a lucrative job modeling lingerie for wealthy clients in Orlando.
A.W. accepted. The day after she arrived in Orlando, however, she learned that she
was expected to have sex for money. A.W. reluctantly agreed to go forward with a
8

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 9 of 26

“date” that day, and she had sex with approximately eight men per day for the next
several days. She was able to keep half the proceeds during this time.
Oberholtzer further testified that L.P. left town after about a week, leaving
A.W. alone with Hamidullah. He began to drink and offered her Xanax, which she
refused. He then tried to kiss her, but she refused again. In response, he struck her
and called her a “bitch.” He then retrieved a metal dog leash, whipped her with it,
put it around her neck, and took her to the back bedroom and raped her. He told her,
“your pussy will never be anyone else’s but mine.” The next day, he took her phone
and gave her a new one with none of her contacts. A.W. continued to see multiple
clients per day, but Hamidullah kept all the proceeds. And he continued to assault
A.W., smashing her head into a wall on one occasion and using the metal dog leash
to whip her on the buttocks, back, and thighs on other occasions. In addition, he
gave her five to six Xanaxes per day, made her get a tattoo of the word “daddy,” and
installed an alarm system at the apartment without providing her the access code.
A.W. also stated that Hamidullah forced another victim, T.R., to get an abortion
when he found out she was pregnant. A.W. and T.R. fled the apartment one day
when Hamidullah went to pick up L.P. from the airport.
Agent Alleyne testified about his interview with L.P. According to Alleyne,
L.P. stated that Hamidullah told her to recruit “young beautiful women” with “family
issues” “so that he could create a sense of family” to exploit through
9

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 10 of 26

“manipulation]” and “mind games.” L.P. placed advertisements for Hamidullah
stating that the job was for either escorting or modeling. L.P. first met him in 2005,
when she was eighteen years old and in high school, after responding to a similar
advertisement. L.P. began prostituting for Hamidullah, who kept the proceeds. In
2010, L.P. decided to leave him because of verbal, physical, and sexual abuse. This
abuse, according to L.P., included breaking her nose and insisting that she have sex
when she did not want to. When L.P. told him she wanted to leave, he said she
needed to find a replacement to be his “main girl,” and A.W. was intended to be that
replacement. L.P. also confirmed that T.R. had an abortion.
Alleyne further testified about his interview with T.R., who was recruited
shortly after A.W. According to Alleyne, T.R. stated that she was eighteen years old
when she was recruited by L.P. to be an escort and go on dinner dates with wealthy
men. She soon learned that escorting meant prostitution, and T.R. began seeing
clients for Hamidullah, who kept the proceeds. At some point T.R. started gaining
weight because she became pregnant. When Hamidullah found out, he became very
angry and forced her to get an abortion against her will. Alleyne testified that he
was able to corroborate that Hamidullah drove T.R. to the abortion clinic where the
procedure was performed, because the clinic kept records of its patients’ drivers.
T.R. also provided details about her interactions with A.W. Hamidullah largely kept
T.R. and A.W. separate, though T.R. saw bruises on A.W.’s body and once saw him
10

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 11 of 26

throw a chair at A.W. As a result, T.R. became “terrified” of him. A.W. also told
her that she was being physically and sexually abused by Hamidullah and that he
would choke her and force her to have anal sex with him.
Alleyne further testified about his post-arrest interview with Christina Davis,
Hamidullah’s codefendant. Davis stated that she engaged in prostitution for
Hamidullah and suffered verbal, physical, sexual abuse at his hands. Against
Davis’s wishes, Hamidullah would have “rough sex” with her and slap her. Once
he whipped her with a cord. He also took her driver’s license and did not give her
the code to the apartment’s alarm system.
Finally, Alleyne testified that multiple other women were interviewed as part
of the criminal investigation. The government played clips of an interview with one
such woman, J.R., at sentencing. In these clips, according to Alleyne, J.R. described
how Hamidullah forced her to have sex with him, physically abused her, and “forced
all the women to have abortions.” Later, the court referenced the clips and indicated
that J.R. had stated that Hamidullah “forced her handcuffed nude in the bathtub and
forcibly poured alcohol down her throat.”
Throughout this testimony, Hamidullah’s counsel lodged objections based on
hearsay and the reliability of the information. The district court overruled the
hearsay objections, stating that hearsay was admissible in a sentencing hearing and

11

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 12 of 26

indicating that it viewed the hearsay testimony as reliable and partially corroborated
by the facts Hamidullah admitted in the plea agreement.
The district court overruled Hamidullah’s various objections to the factual
statements in the PSR. The court calculated a guideline range of 180 to 210 months
based on a total offense level of 35 and a criminal-history category of I. After a onelevel reduction for substantial assistance under U.S.S.G. § 5K1.1, the guideline
range became 151 to 188 months, though a mandatory sentence of fifteen years
applied to the § 1591 offense. See 18U.S.C. § 1591(b)(1).
Hamidullah requested a sentence near the statutory minimum, arguing that
such a sentence was still “very severe,” in line with the guideline range and the
government’s recommendation, and was appropriate to meet the goals of deterrence,
protection of the public, and rehabilitation. Consistent with its promises in the plea
agreement, the government requested a sentence of 188 months, at the high end of
the guideline range.
In pronouncing sentence, the district court reviewed the plea agreement’s
factual basis and noted that it partially corroborated much of the hearsay testimony
the court heard at sentencing. As for the dispute about the content of the
advertisements, the court stated that it was “inconsequential.” The court explained,
He defrauded the victims, isolated the victims, assaulted the victims,
kept all of their money, imprisoned them, and then mutilated them by
forcing them to get tattoos that said “daddy” on them. So whether or
not the advertisement was for modeling or escorts or adult modeling, I
12

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 13 of 26

think it’s like changing the tire on a car that's on fire. The real issue
here is that whatever the advertisement was for, these young people did
not come over here believing that they were going to be .. . defrauded,
isolated, assaulted, have all of their money confiscated, be imprisoned,
be forced to get these tattoos. So I’m not really that concerned with
what they were told to get them there.
The district court went on to describe Hamidullah’s conduct as “the most depraved
behavior I’ve ever seen” outside of murder cases in five years on the federal bench,
resulting in a “trail of lives that he’s just ruined.” The court rejected Hamidullah’s
argument that supervised release would be an adequate deterrent to reoffending,
noting that “[pjeople violate supervised release.”
Ultimately, the district court sentenced Hamidullah to a total term of 482
months of imprisonment, stating that it was sufficient but not greater than necessary
based on the 18 U.S.C. § 3553(a) sentencing factors. That term consisted of 180
months as to Count 2, 120 months as to Count 3, 151 months as to Count 4, and 151
months as to Count 5, with the concurrent sentences for Counts 2 and 3 running
consecutively to the concurrent sentences for Counts 4 and 5. Hamidullah objected
to the court’s reliance on hearsay, the substantive reasonableness of the sentence,
and the denial of his motion to withdraw his guilty plea. He now appeals, pressing
these same arguments.
II.

13

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 14 of 26

We begin with the denial of Hamidullah’s motion to withdraw his guilty plea,
which we review for an abuse of discretion.1 United States v. Brehm, 442 F.3d 1291,
1298 (11th Cir. 2006). “There is no abuse of discretion unless the denial is arbitrary
or unreasonable.” Id. (quotation marks omitted).
A defendant may withdraw a guilty plea before sentencing if he “can show a
fair and just reason for requesting the withdrawal.” Fed. R. Crim. P. 11(d)(2)(B).
To determine whether a defendant has shown such a “fair and just reason,” the
district court should “consider the totality of the circumstances surrounding the
plea,” including these four factors: “(1) whether close assistance of counsel was
available; (2) whether the plea was knowing and voluntary; (3) whether judicial
resources would be conserved; and (4) whether the government would be prejudiced
if the defendant were allowed to withdraw his plea.” United States v. Buckles, 843
F.2d 469, 471-72 (11th Cir. 1988) (citation omitted). The good faith, credibility,
and weight of a defendant’s assertions in support of a motion to withdraw his plea
are issues for the trial court to decide. Id. at 472. If a defendant cannot satisfy the
first two factors, the district court need not give “particular attention” to the

We need not and do not address the government’s contention that the doctrine of law of
the case bars Hamidullah from challenging the validity of his guilty plea on the ground that he did
not challenge the validity of his plea in his first appeal. Law of the case is a “judicially created
doctrine,” not jurisdictional, Heathcoat v. Potts, 905 F.2d 367, 370 (11th Cir. 1990), and
Hamidullah is not entitled to relief on the merits even if the doctrine does not apply. Because
Hamidullah’s motion to supplement the record appears to relate solely to the government’s lawof-the-case argument, the motion is DENIED AS MOOT.
14

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 15 of 26

remaining factors. See United States v. Gonzalez-Mercado, 808 F.2d 796, 801 (11th
Cir. 1987).
Here, the district court properly denied Hamidullah’s motion to withdraw his
guilty plea. First, Hamidullah does not dispute that he had close assistance of
counsel during both plea negotiations and the change-of-plea hearing. In fact,
Hamidullah affirmed during the plea colloquy that he had fully discussed the case
with his attorney and was satisfied with her representation. He has failed to rebut
the “strong presumption” that these sworn statements are true. See United States v.
Medlock, 12 F.3d 185, 187 (11th Cir. 1994) (“There is a strong presumption that the
statements made during the colloquy are true.”).
Second, Hamidullah has made no showing that the factual dispute regarding
the content of the advertisement affected whether the plea was knowing and
voluntary. At the plea hearing, the district court fully complied with Rule 11, and
Hamidullah affirmed that his guilty plea was voluntary, that he committed the
alleged offenses as set out in the plea agreement’s factual basis, and that he
understood the consequences of his guilty plea, including a waiver of his trial rights.
Again, Hamidullah has failed to rebut the “strong presumption” that these statements
/

are true. See id.
Hamidullah claims that the district court’s comments at the plea hearing
caused him to believe “that if the government did not present the actual
15

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 16 of 26

advertisements at the sentencing hearing, the [district [c]ourt would revisit his plea
and allow him the opportunity to withdraw his plea.”

But the district court

reasonably concluded that this claim was not credible. See Buckles, 843 F.2d at 472.
As the district court explained, whether the advertisements said “modeling”
or “escorting” was insignificant in the overall context of his guilty plea admissions.
Regardless of the specific wording, Hamidullah admitted that the advertisements
were designed “to recruit women into the defendant’s prostitution enterprise by
falsely offering employment” and that he “did not disclose that A.W. was being
recruited to prostitute for the defendant’s profit.”
Moreover, Hamidullah knew there was a dispute between the parties on this
point when he finalized the plea agreement, having argued successfully to remove
the “modeling” language, and he chose to go forward with his guilty plea. That
suggests he recognized that this factual dispute was not relevant to whether he
committed the elements of the charged offenses and would have no role at the plea
hearing. The fact that the district court’s curiosity revealed the parties’ dispute at
the plea hearing does not transform the significance of the dispute, which the court
rightly recognized was simply a factual matter to be resolved at sentencing, not
something going to the validity of Hamidullah’s plea.
The timing of Hamidullah’s motion to withdraw also deserves consideration.
See Gonzalez-Mercado, 808 F.2d at 801 (noting that “the time between entry of the
16

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 17 of 26

plea and motion to withdraw the plea may be indicative of defendant’s motivation”).
Hamidullah’s motion to withdraw came after the judge imposed a much harsher
sentence than recommended by the Sentencing Guidelines or the government, which
suggests that he sought to withdraw his plea after we vacated the sentence in
anticipation of receiving a similarly harsh sentence at resentencing. See id.
Because Hamidullah had close assistance of counsel and he has made no
showing that his guilty plea was unknowing or involuntary, we need not give
“particular attention” to the factors of judicial efficiency and prejudice to the
government.

See id.

For the reasons we have explained, the district court

reasonably concluded that Hamidullah did not present a fair and just reason for
withdrawing his guilty plea. See Fed. R. Crim. P. 11(d)(2)(B).
III.
Turning to the 482-month sentence, Hamidullah raises procedural and
substantive issues. Procedurally, he maintains that the district court improperly
resolved disputed facts based on hearsay, double hearsay, and even triple hearsay.
Substantively, he contends that his sentence is unreasonably harsh, more than double
the sentence recommended by the government and the Sentencing Guidelines.
A.
We review the factual findings of the sentencing court for clear error. United
States v. Rodriguez, 732 F.3d 1299, 1305 (11th Cir. 2013). “Although review for
17

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 18 of 26

clear error is deferential, a finding of fact must be supported by substantial
evidence.” Id. (quotation marks omitted).
The government bears the burden of proving disputed facts at sentencing by a
preponderance of the evidence. Id. To meet this burden, the government’s evidence
must be “reliable and specific.” Id. Hearsay evidence can support a sentencing
decision, “provided that the information has sufficient indicia of reliability to support
its probable accuracy.” United States v. Johnson, 980 F.3d 1364, 1373 (11th Cir.
2020) (quoting U.S.S.G. § 6A1.3). Explicit reliability findings may be required
where the reliability of the hearsay statements is not apparent from the record.
United States v. Gordon, 231 F.3d 750, 760-61 (11th Cir. 2000).
Hamidullah broadly condemns the district court’s reliance at the resentencing
hearing on “unreliable totem pole double and triple hearsay presented through agent
summary testimony” of “dated unsworn interviews of putative co-conspirators
facing possible prosecution themselves.”

In relying on this testimony, in

Hamidullah’s view, the court committed the same procedural error—basing the
sentence on evidence without adequate support in the record—that led us to vacate
his original sentence. We disagree.
As we have noted, Hamidullah broadly disputed these five factual matters
described in the PSR: (1) whether he advertised for models; (2) whether he forced
women to have abortions; (3) whether he sexually assaulted any victims; (4) whether
18

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 19 of 26

he gave drugs to victims; and (5) whether he instructed others to recruit women with
family problems.
In support of the PSR at resentencing, the government called two witnesses,
Special Agent Oberholtzer and Agent Alleyne, to testify about hearsay statements
made by victims A.W., L.P., and T.R. during interviews with law enforcement. It
also offered clips of a recorded interview with another victim, J.R. The evidence
relating to each of the five factual disputes included the following: (1) A.W. stated
that she responded to an ad for modeling; and L.P. said she placed advertisements
for Hamidullah seeking escorts or models; (2) T.R. stated that Hamidullah forced
her to get an abortion against her will; both L.P. and A.W. gave similar information;
and Alleyne obtained records indicating that Hamidullah drove T.R. to the abortion
clinic; (3) A.W. described a specific instance of sexual assault involving Hamidullah
striking her with a metal dog leash, raping her, and telling her “your pussy will never
be anyone else’s but mine”; L.P. stated that Hamidullah made her have sex when
she did not want to; and Davis (Hamidullah’s codefendant) reported unwillingly
engaging in “rough sex” with Hamidullah; (4) A.W. stated that Hamidullah gave her
five or six Xanaxes per day, and J.R. recalled Hamidullah forced her to drink alcohol
while handcuffed; and (5) L.P. stated that Hamidullah told her to recruit “young
beautiful women” with “family issues

a

so that he could create a sense of family”

which he could exploit through “manipulation]” and “mind games”; and A.W.
19

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 20 of 26

stated that she was recruited as an eighteen-year-old after recently losing custody of
her child.
Contrary to Hamidullah’s claim, these hearsay statements were sufficiently
reliable to be considered at sentencing. For starters, the hearsay statements, in the
main, provided specific details about the victims’ traumatic experiences. See United
States v. Baptiste, 935 F.3d 1304,1317 (llthCir. 2019) (finding a hearsay statement
reliable in part due to its specificity). In addition, the victims’ experiences were
consistent with one another in describing Hamidullah’s emotional, physical, and
sexual abuse, and most disputed facts were supported by the statements of multiple
victims. See Gordon, 231 F.3d at 761 (finding that consistency between the hearsay
statements of codefendants “lend[ed] the statements credibility”). The hearsay
statements were also consistent with and partially corroborated by the facts
Hamidullah admitted as part of his guilty plea, including that he recruited women
“by falsely offering employment,” that he maintained a sexual relationship with one
victim (L.P.), and that he used “a combination of force, fraud, and coercion,”
including physical assault and isolation, against another victim (A.W.). Finally,
Hamidullah suggests that the victims were not reliable because they were
“themselves coconspirators,” but he does not explain why this would make their
statements unreliable in the context of this case, and the victims all appear to have
freely admitted to engaging in prostitution for Hamidullah during their interviews
20

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 21 of 26

with law enforcement. See Baptiste, 935 F.3d at 1317 (noting that statements against
interest are more likely to be reliable).
All these factors lend credibility to the hearsay statements and are enough to
establish that the statements had sufficient “indicia of reliability” to be considered
without the need for explicit reliability findings. See id. (“[W]here the record and
the circumstances of the case demonstrate adequate indicia of reliability, findings
are not strictly necessary.” (quotation marks omitted)).2 Accordingly, the district
court did not procedurally err by relying on these statements to resolve Hamidullah’s
objections to the PSR or to impose an upward variance.
B.
Turning to the substantive reasonableness of the sentence, we conclude that
Hamidullah has not shown that the district court abused its discretion by sentencing
him to a total term of 482 months in prison. See United States v. Hayes, 762 F.3d
1300, 1307 (11th Cir. 2014) (“We review the substantive reasonableness of a
sentence for abuse of discretion.”).
The district court must impose a sentence “sufficient, but not greater than
necessary, to comply with the factors and purposes” in § 3553(a), which include “the

2 Relying on our decision in United States v. Lee, 68 F.3d 1267 (11th Cir. 1995),
Hamidullah contends that specific reliability findings are always required. But as we explained in
Gordon and reiterated in Baptiste, that is incorrect. The need for reliability findings is evaluated
on a case-by-case basis. See Baptiste, 935 F.3d at 1315-17; Gordon, 231 F.3d at 760-61.
21

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 22 of 26

need to reflect the seriousness of the offense, promote respect for the law, provide
just punishment for the offense, deter criminal conduct, and protect the public.”
United States v. Plate, 839 F.3d 950, 957 (11th Cir. 2016). The court must also
consider the nature and circumstances of the offense, the history and characteristics
of the defendant, the applicable guideline range, and the need to avoid unwarranted
sentencing disparities, among other factors. Id.
The advisory guideline range, though the “starting point and the initial
benchmark” for sentencing, Gall v. United States, 552 U.S. 38, 49 (2007), “is but
one of many considerations that a court must take into account in exercising its
sentencing discretion,” United States v. Rosales-Bruno, 789 F.3d 1249, 1254 (11th
Cir. 2015). No particular weight is owed the guideline range. See id. We have
“decided instead that, subject to review for reasonableness, sentencing courts may
determine, on a case-by-case basis, the weight to give the Guidelines, so long as that
determination is made with reference to the remaining section 3553(a) factors that
the court must also consider in calculating the defendant’s sentence.” United States
v. Irey, 612 F.3d 1160, 1217 (11th Cir. 2010) (en banc) (quotation marks omitted).
In imposing a sentence, the district court must consider all the § 3553(a)
factors, but it may, in its discretion, weigh some factors more heavily than others.
Rosales-Bruno, 789 F.3d at 1254.

When the court decides after “serious

consideration” that a variance from the guideline range is appropriate based on the
22

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 23 of 26

§ 3553(a) factors, it should explain that variance “with sufficient justifications.”
Gall, 552 U.S. at 46^7. The court’s justification must be “compelling enough to
support the degree of the variance and complete enough to allow meaningful
appellate review,” but an “extraordinary justification” is not required. United States
v. Shaw, 560 F.3d 1230, 1238 (11th Cir. 2009) (quotation marks omitted). We must
“give due deference to the district court’s decision that the § 3553 factors, on a
whole, justify the extent of the variance.” United States v. Turner, 626 F.3d 566,
573 (11th Cir. 2010) (quotation marks omitted). And “we will not reweigh the
factors” ourselves. United States v. Johnson, 803 F.3d 610, 620 (11th Cir. 2015).
Because we give district courts considerable discretion in making sentencing
decisions, we will “sometimes affirm the district court even though we would have
gone the other way had it been our call.” Rosales-Bruno, 789 F.3d at 1254 (quotation
marks omitted). “The party challenging a sentence has the burden of showing that
the sentence is unreasonable in light of the entire record, the § 3553(a) factors, and
the substantial deference afforded sentencing courts.” Id. at 1256. Put differently,
we will not vacate a sentence unless the party challenging it convinces us that it “lies
outside the range of reasonable sentences dictated by the facts of the case.” lrey,
612 F.3d at 1190 (quotation marks omitted).
Here, Hamidullah has not shown that the district court abused its discretion in
weighing the § 3553(a) factors and imposing an above-guideline sentence of 482
23

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 24 of 26

months of imprisonment. The court considered the parties’ arguments, the evidence
presented at sentencing, and the factual basis in the plea agreement, and it expressly
referenced several § 3553(a) factors, including the history and characteristics of the
defendant, the guideline range, the seriousness of the offense, and the need to protect
the public. After considering all these factors, the court implicitly concluded that
the guideline range did not adequately reflect the seriousness of the offense conduct,
the harm to Hamidullah’s victims, and the danger Hamidullah posed to the
community.
Hamidullah contends that the 482-month sentence is substantively
unreasonable when viewed against the guideline range of 180 to 188 months and the
government’s recommended sentence of 188 months pursuant to a promise in the
plea agreement. However, the advisory guideline range is simply “one of many
considerations that a court must take into account in exercising its sentencing
discretion,” and no particular weight is owed to it. Rosales-Bruno, 789 F.3d at 1254.
The same is true of the government’s sentencing recommendation. Instead, the
relevant question is whether “the sentence is unreasonable in light of the entire
record, the § 3553(a) factors, and the substantial deference afforded sentencing
courts.” Id. at 1256.
And here, giving due deference to the district court, we cannot say that the
extent of the variance was unreasonable under the totality of the circumstances and
24

j

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 25 of 26

the § 3553(a) factors. The offense and relevant conduct were extremely serious. As
the court summarized, Hamidullah lured in young, troubled women with false
promises of employment and forced them into prostituting for his benefit through a
combination of violence, fraud, and coercion. Hamidullah effectively imprisoned
the victims and subjected them to brutal and depraved treatment—the “most
depraved behavior” the court had seen outside of murder cases in five years on the
federal bench. Besides sexual slavery, that conduct included raping A.W. and using
a metal dog leash to whip her, forcing T.R. to get an abortion, breaking L.P.’s nose
and insisting that she have sex when she did not want to, and forcing the victims to
be branded with a tattoo reflecting his claim of ownership over their bodies. The
harm this conduct caused the victims was incalculable, as reflected in the victimimpact statements. Moreover, the depravity and brutality of Hamidullah’s conduct
supports the district court’s conclusion that a sentence well in excess of the guideline
range was necessary to protect the public from further crimes of Hamidullah. Based
on these disturbing facts, we cannot fault the district court for concluding that a 482month, above-guideline sentence was necessary given the seriousness of the offense,
the harm to the victims, and the need to protect the public, even if we might have
imposed a lesser sentence “had it been our call.” Rosales-Bruno, 789 F.3d at 1254.
Hamidullah’s remaining arguments are unpersuasive.

He suggests his

sentence is unreasonably harsh when compared to the sentence of time served
25

USCA11 Case: 19-13720

Date Filed: 03/01/2021

Page: 26 of 26

imposed on Davis, his codefendant. “A well-founded claim of disparity, however,
assumes that apples are being compared to apples.” United States v. Docampo, 573
F.3d 1091, 1101 (11th Cir. 2009) (quotation marks omitted). Davis’s situation is
simply not comparable because she had been convicted of a far less serious offense
and was in part Hamidullah’s victim.1 See United States v. Jayyousi, 657 F.3d 1085,
1118 (11th Cir. 2011) (explaining that courts “should not draw comparisons to cases
involving defendants who were convicted of less serious offenses”). Hamidullah
also contends that the district court failed to recognize that the needs for deterrence
and protection of the public were lessened due to the restrictive conditions of his
supervised release and his registration as a sex offender. The district court, however,
considered and rejected Hamidullah’s argument on this point, reasoning that these
restrictions were not enough to reduce the length of incarceration because, in the
court’s experience, defendants routinely violate the terms of their supervised release.
The weight to be given these factors was within the district court’s discretion, and
“we will not reweigh the factors” ourselves. See Johnson, 803 F.3d at 620.
IV.
In sum, we affirm Hamidullah’s convictions and total sentence for sex
trafficking.
AFFIRMED.

26

